  DEPARTMENT OF HOMELAND SECURITY

    Office of Inspector General



     INFORMATION TECHNOLOGY:
        DHS Information Security Program
              Evaluation, FY2003




 Office of Information Technology
OIG-IT-03-02        September 2003
                                      Preface


The Department of Homeland Security (DHS) Office of Inspector General (OIG)
was established by the Homeland Security Act of 2002 (Public Law 107-296) by
amendment to the Inspector General Act of 1978. This is one of a series of audit,
inspection, investigative, and special reports prepared by the OIG periodically
as part of its oversight responsibility with respect to DHS to identify and prevent
fraud, waste, abuse, and mismanagement.

This report is the result of an assessment of the strengths and weaknesses of the
program, operation, or function under review. It is based on interviews with
employees and officials of relevant agencies and institutions, direct observations,
and a review of applicable documents.

The recommendations herein, if any, have been developed on the basis of the
best knowledge available to the OIG, and have been discussed in draft with those
responsible for implementation. It is my hope that this report will result in more
effective, efficient, and/or economical operations. I express my appreciation to all
of those who contributed to the preparation of this report.




Clark Kent Ervin
Acting Inspector General
                                                                                                                         Contents

  Introduction......................................................................................................................................3

  Results in Brief .............................................................................................................................. 4

  Background .................................................................................................................................... 6

  Results of Independent Evaluation… ............................................................................................ 7

             Overview of FISMA IT Security Reviews......................................................................... 7

             Responsibilities of Agency Head ..................................................................................... 13

             Responsibilities of Agency Program Officials and Agency Chief Information Officer... 21

             Recommendations…........................................................................................................ 26

Appendices
  Appendix A:                 Purpose, Scope, and Methodology.................................................................. 28
  Appendix B:                 Employee Training.......................................................................................... 29
  Appendix C:                 List of DHS Agencies ..................................................................................... 30
  Appendix D:                 Major Contributors To This Report ................................................................ 31
  Appendix E:                 Report Distribution ......................................................................................... 32




                                DHS Information Security Program Evaluation                                                                      Page 1
Contents

   Abbreviations

   BCBP                  Bureau of Customs and Border Protection
   BICE                  Bureau of Immigration and Customs Enforcement
   BCIS                  Bureau of Citizenship and Immigration Services
   BTS                   Border and Transportation Security
   C&A                   Certified and Accredited, Certification and Accreditation
   CIAO                  Critical Information Assurance Officer
   CIO                   Chief Information Officer
   CIP                   Critical Infrastructure Protection
   CISO                  Chief Information Security Officer
   CSIRC                 Computer Security Incident Response Center
   DHS                   Department of Homeland Security
   EP&R                  Emergency Preparedness and Response
   FedCIRC               Federal Computer Incident Response Center
   FEMA                  Federal Emergency Management Agency
   FISMA                 Federal Information Security Management Act
   FLETC                 Federal Law Enforcement Training Center
   GISRA                 Government Information Security Reform Act
   IAIP                  Information Analysis and Infrastructure Protection
   IG                    Inspector General
   IO                    Information Officer
   ISSB                  Information Systems Security Board
   ISSM                  Information Systems Security Manager
   IT                    Information Technology
   MD                    Management Directive
   NIST                  National Institute of Standards and Technology
   OIG                   Office of Inspector General
   OMB                   Office of Management and Budget
   POA&M                 Plan of Action and Milestones
   S&T                   Science and Technology
   TSA                   Transportation Security Administration
   USCG                  United States Coast Guard
   USSS                  United States Secret Service




Page 2             DHS Information Security Program Evaluation
OIG
Department of Homeland Security
Office of Inspector General


    Introduction
                        The Department of Homeland Security (DHS) was officially established in January
                        2003 by merging 22 federal agencies1 into one department. Although the DHS Chief
                        Information Officer (CIO) and Chief Information Security Officer (CISO) were in place
                        in January 2003, the information security function did not begin acquiring needed staff
                        and resources until March 2003. With limited resources, the CISO and program directors
                        have worked to establish the framework for the DHS information technology (IT)
                        security program over the last six months.

                        In response to the Federal Information Security Management Act (FISMA), the Office
                        of Inspector General (OIG) performed an independent evaluation of DHS’ information
                        security program and practices. Our independent evaluation addressed the soundness
                        of the department’s information security program and includes the components’
                        performance measures and progress in achieving those measures. Our evaluation
                        included an assessment of DHS’ progress in developing and managing its information
                        security program; addressing security weaknesses identified for FY 2002; evaluating
                        data submitted by DHS components; and verifying reported data. Further, OIG assessed
                        components’ compliance with the requirements of FISMA and related security policies,
                        procedures, standards, and guidelines. The components included in this report are:
                        Bureau of Citizenship and Immigration Services (BCIS); Border and Transportation
                        Security (BTS); Emergency Preparedness and Response (EP&R); Information Analysis
                        and Infrastructure Protection (IAIP); Science and Technology (S&T); United States
                        Coast Guard (USCG); United States Secret Service (USSS); Management; and OIG. The
                        purpose, scope, and methodology for this review are included in Appendix A.

                        To complete our independent evaluation for FY 2003, OIG requested information from
                        all of the components listed above. Our information request included all items received
                        through the end of August 2003. All of the components responded fully or in part to our
                        data request. From the information received, we evaluated each component’s progress in
                        meeting the Office of Management and Budget (OMB) performance measures.



    1
        See Appendix C for list of the agencies.



                                   DHS Information Security Program Evaluation                           Page 3
Results in Brief
                   In the short period of time since its establishment, DHS has made some progress in
                   establishing a framework for its information systems security program. Still more needs
                   to be done to ensure the security of DHS’ information technology infrastructure and
                   prevent disruptions to mission operations.

                   OIG found that the agency head designated the CIO as the person responsible for the
                   security of information systems within DHS. The DHS CIO further designated a CISO
                   to develop, implement, and manage the department-wide IT security program. Both the
                   CIO and the CISO were in place since the inception of DHS in January 2003, however
                   the information security function did not begin its staffing process until March 2003.
                   The CISO selected program directors who are responsible for ensuring compliance with
                   key FISMA requirements including: policy, compliance, training, incident handling,
                   and critical infrastructure protection (CIP). The CISO developed and disseminated
                   information system security policies and procedures to DHS employees. Finally,
                   the CISO established an Information Systems Security Board (ISSB) consisting of
                   Information Systems Security Managers (ISSM) from each component. The ISSB
                   members help develop DHS security policies and procedures, and they are responsible
                   for ensuring that all computer systems are operating in accordance with these security
                   policies and procedures. The CIO and the CISO are continuing to build on the
                   information security framework that they have established over the last six months to
                   ensure an effective DHS security program.

                   The DHS CIO and CISO have made progress in a number of additional areas, which
                   will aid DHS in implementing an agency-wide IT security program. OIG found that
                   DHS has drafted an Information Security Strategic Plan, which will be used as a guide
                   for the CISO and program directors to develop fully a comprehensive IT security
                   program. Further, security policies and procedures were issued covering unclassified
                   and classified systems, an incident response and reporting process was implemented,
                   a security awareness training program was initiated, and a CIP working group was
                   established to assist DHS in developing and maintaining a plan for protecting its critical
                   infrastructure. In addition, DHS established an Investment Review Board to provide
                   oversight of all investments. The DHS CIO, as a board member, ensures that decisions
                   over IT investments support the future DHS architecture and business processes. In
                   further support of managing the DHS IT investment portfolio, security costs reported in
                   the Exhibit 3002, Capital Asset Plan and Business Case, have been summarized for FY
                   2004 and will be consolidated for DHS’ FY 2005 budget submission.

2
    Exhibit 300 is the OMB document used to request budget money for an IT investment.



Page 4                                        DHS Information Security Program Evaluation
                    OMB requires that Plans of Action and Milestones (POA&M) be developed for each
                    program and system that has a weakness identified through FISMA reports, General
                    Accounting Office or financial system audits, or vulnerability assessments. OIG
                    found that DHS does not have a process to ensure that all POA&Ms are developed,
                    implemented, and managed for every DHS system. Further, the process currently in
                    place is not being followed by all DHS components. DHS has purchased an automated
                    tool, which will require the use of the National Institute of Standards and Technology
                    (NIST) self-assessment when performing program and system reviews. This database
                    tool is being customized to provide additional information, which has been determined
                    to be useful for the monitoring of identified security weaknesses. OIG found that all
                    components’ POA&Ms are not maintained in the centralized POA&M database because
                    either the component is using its own database or the component has not been trained
                    on use of the database tool. In addition, POA&Ms for security weaknesses relating to
                    classified systems are not included within this database.

                    While the DHS CIO and CISO have achieved some success in developing the DHS
                    IT security program, DHS must rely on its components to follow established policies
                    and procedures in order to implement the program. OIG found that none of the DHS
                    components has a fully functioning IT security program. Each of the components is
                    lacking in one or more of the performance measurement areas established by FISMA.
                    The Bureau of Customs and Border Protection (BCBP) and the Bureau of Immigration
                    and Customs Enforcement (BICE), both of which are part of BTS, and USSS, have the
                    most mature IT security programs. The majority of their systems have been reviewed,
                    assessed for risk, and certified and accredited.

                    Overall, OIG’s evaluation of DHS’ compliance with FISMA identified key areas of
                    security that require management attention. Specifically, OIG found that while 42 percent
                    of DHS systems have security plans, only 37 percent of DHS systems were C&A, and 39
                    percent of systems had been assessed for risk. In addition, 21 percent of DHS systems’
                    security controls had been tested and evaluated in the past year, and only 11 percent of
                    DHS systems had contingency plans.

                    Finally, FISMA requires an agency to report any significant deficiency on the adequacy
                    and effectiveness of its information security program as a material weakness.3 As such,
                    based on OIG’s evaluation of DHS’ IT security program, OIG recommends that the Chief
                    Information Officer declare information security a material weakness at DHS.


3
    A material weakness is a significant deficiency in the adequacy and effectiveness of information security policy, procedure,
    and practice. Examples include the failure to perform adequate annual program and system reviews, lack of system security
    plans, absence of system certification and accreditation, and failure to maintain comprehensive POA&Ms.


                               DHS Information Security Program Evaluation                                              Page 5
         Further, to assist the CIO in the development of the DHS security program, OIG makes
         several additional recommendations found at the end of OIG’s independent evaluation.



Background
         On December 17, 2002, the President signed into law the E-Government Act of 2002
         (P.L. 107-347), which includes Title III, FISMA. FISMA permanently reauthorized
         the framework laid out in the Government Information Security Reform Act of 2000
         (GISRA), which expired in November 2002. FISMA focuses on the security program
         management, implementation, and evaluation aspects of the security of unclassified and
         national information security systems. While FISMA continues the process for annual
         reviews and reporting requirements that were first introduced under GISRA, it also
         includes new guidance that is aimed at further strengthening the security of the federal
         government’s information and information systems, including the development of
         minimum standards for agency information systems. NIST is to work with agencies in
         the development of those standards, per its statutory role in providing technical guidance
         to federal agencies. Title III, along with OMB policy, lays out a framework for annual IT
         security reviews, reporting, and remediation planning.

         OMB issued memorandum M-03-18, Reporting Instructions for the Federal Information
         Security Management Act and Updated Guidance on Quarterly IT Security Reporting
         on August 1, 2003. One significant change directs Inspectors General (IGs) to assess
         specific criteria, where the agency has developed, implemented, and manages an agency-
         wide POA&M process. The agency report must consist of two separate components.
         One is to be prepared by the OIG, characterizing the results of its independent evaluation
         and agency progress in implementing its POA&Ms. The other component is to be
         prepared by the DHS CIO, working with program officials, reflecting the results of their
         annual system and program reviews and progress in implementing their POA&Ms.




Page 6                           DHS Information Security Program Evaluation
Results of Independent Evaluation
                   A. Overview of FISMA IT Security Reviews

                   A.1. – Identify the agency’s total IT security spending and each individual major
                   operating division or bureau’s IT security spending as found in the agency’s FY03
                   budget enacted.

                   OIG is not required to report on this area.


                   A.2 – Programs and Systems

                   A.2a. Identify the total number of programs and systems in the agency, the total number of systems and programs reviewed by
                   the program officials and CIOs in FY03, the total number of contractor operations or facilities, and the number of contractor
                   operations or facilities reviewed in FY03. Additionally, IGs shall also identify the total number of programs, systems, and
                   contractor operations or facilities that they evaluated in FY03.

                                                                                                                   FY03 Contractor Operations
                              Bureau Name                 FY03 Programs                      FY03 Systems
                                                                                                                          or Facilities

                                                                      Number                          Number                          Number
                                                   Total Number      Reviewed      Total Number      Reviewed      Total Number      Reviewed
                   BTS-BICE/BCIS                         7               7              88              87               0               0
                   BTS-BCBP                              6               0              25              23              17              17
                   BTS-TSA                              13               0              79                  2            9               9
                   BTS-FLETC                             5               0              11                  1            3               0
                   EP&R                                 11               0              58                  8            2               2
                   IAIP                                  0               0               5                  0            3               0
                          4
                   S&T                                   0               0               0                  0            0               0
                   USCG                                  5               0              55              14               3               0
                   USSS                                  3               0              20              17               1               1
                   OIG                                   4               0               2                  0            0               0
                   Management                            2               0               4                  0            3               0
                   Agency Total                         56               7              347             152             41              29




4
    S&T does not have any information systems.



                                 DHS Information Security Program Evaluation                                                           Page 7
         A.2 – Programs and Systems, cont’d

         A.2b. For operations and assets under their control,           Yes.
         have agency program officials and the agency CIO used          DHS has established “Information Systems Security Management
         appropriate methods (e.g., audits or inspections, agreed       Directive 4300 Publication” dated June 2003 that outlines agreed
         upon IT security requirements for contractor provided          upon security requirements for contractor provided services.
         services or services provided by other agencies) to ensure     Outsourced services and operations must adhere to the DHS
         that contractor provided services or services provided         security policies. All contractors must adhere to the same rules and
         by another agency for their program and systems are            regulations as government employees.
         adequately secure and meet the requirements of FISMA,
         OMB policy and NIST guidelines, national security policy,
         and agency policy?



         c. If yes, what methods are used? If no, please explain why. The requirements include non-disclosure agreements, minimum
                                                                      background investigations, appointment of a security point-of-
                                                                      contact or contracting officer for the duration of the contract, and
                                                                      onsite inspection of facilities.
         d. Did the agency use the NIST self-assessment guide to      Only two components used the NIST self-assessment guide to
         conduct its reviews?                                         conduct reviews. DHS has obtained an automated tool, Trusted
                                                                      Agent FISMA, which will be used department-wide to conduct all
                                                                      NIST self-assessments in FY 2004.
         e. If the agency did not use the NIST self-assessment guide Components that did not use the NIST self-assessment guide
         and instead used an agency-developed methodology, please developed their own in-house risk assessment checklists.
         confirm that all elements of the NIST guide were addressed
         in the agency methodology.

         f. Provide a brief update on the agency’s work to develop      The DHS CIO continues to work with contractors to develop
         an inventory of major IT systems.                              an accurate systems inventory. There are a number of activities
                                                                        planned or under way (financial statement audit, IT portfolio
                                                                        management review, and Project Matrix review) to update the
                                                                        current systems inventory. The DHS CIO believes that the existing
                                                                        inventory identified 90 to 95 percent of all information systems
                                                                        within DHS.


         DHS is in the process of identifying its programs, systems, and contractor operations.
         DHS identified and reported to the OIG a total of 56 programs, 347 systems, and
         41 contractor operations. OIG found that four components (BICE, EP&R, Federal
         Law Enforcement Training Center (FLETC), and USCG) have mapped each of their
         major systems to specific programs; the remaining components have not made such
         associations.

         According to OMB memorandum M-03-18, components are required to use the
         NIST 800-26 self-assessment guide to review their programs, systems, and contractor
         operations. A total of 7 program, 152 system, and 29 contractor operation reviews were
         conducted by the components using various methodologies. Overall, the components
         conducted only 29 of 152 system reviews using NIST 800-26 self-assessments. The
         components conducted 7 program, 123 system, and 29 contractor operation reviews using
         methodologies, which comprised a variation of internal program audits, certification and
         accreditation (C&A) risk assessments, and component developed security checklists.



Page 8                                      DHS Information Security Program Evaluation
To ensure that contractor provided services are secure, DHS issued the “Information
System Security Management Directive (MD) 4300 Publication for Sensitive
and National Security Systems” that outlines specific IT security procedures and
requirements. The security requirements include protection of sensitive information at
the contractor site, background investigations and/or clearances on contractor personnel,
and appointment of contracting officers for the duration of the contract. Internal and site
reviews should be conducted to ensure that the security requirements outlined in the
contract are implemented and enforced.

From February to April 2003, a DHS contractor conducted an inventory of its information
systems, meaning its major applications and general support systems. The inventory
identified 1,586 applications that were divided into four categories: mission, business,
enterprise solutions, and infrastructure. The inventory was based on input from DHS
components, allowing each component to divide its applications into further categories
and at a greater level of detail. The DHS CIO believes that the inventory identified 90 to
95 percent of all information systems within DHS. As part of its independent evaluation,
OIG determined that the programs and systems reported by the components under
FISMA are included in the larger inventory of 1,586 applications mentioned above.

A.3 – Material Weaknesses

 A.3 Identify all material weakness in policies, procedures, or practices as identified and required to be reported under
 existing law in FY03. Identify the number of material weaknesses repeated from FY02, describe each material weakness,
 and indicate whether POA&Ms have been developed for all of the material weaknesses.

                                                                FY 03 Material Weaknesses
        Bureau Name                                      Total Number            Identify and           POA&Ms developed?
                                 Total Number            Repeated from          Describe Each
                                                             FY02              Material Weakness                 Y/N

 BTS-BICE/BCIS                         A                        A                   See below                    N/A
 BTS-BCBP                               2                       2                   See below                     Y
 BTS-TSA                               A                        A                   See below                     --
 BTS-FLETC                              0                       0                   See below                     --
 EP&R                                   8                       8                   See below                     Y
 IAIP                                  A                        A                   See below                     --
 S&T                                   B                        B                   See below                     --
 USCG                                  A                        A                   See below                     --
 USSS                                   0                       0                   See below                     --
 OIG                                    0                      N/A                  See below                     --
 Management                             0                      N/A                  See below                     --
 Agency Total                           10                      10
A - Through reviews of FY 2002 GISRA reports and FY 2002 Performance and Accountability reports, OIG was unable to determine
whether a material weakness existed for this component in FY 2003 or repeated from FY 2002 since the legacy agency identified only
department-wide material weaknesses (not at the component level).
B - OIG was unable to determine whether material weaknesses existed for the component based on information provided either by
DHS headquarters or legacy agency.


             DHS Information Security Program Evaluation                                                                 Page 9
          OIG was able to identify ten IT security material weaknesses in FY 2003 using the legacy
          agencies’ FY 2002 GISRA reports and FY 2002 Performance and Accountability reports.
          These ten weaknesses were repeated from FY 2000.

          Material weaknesses identified for the Federal Emergency Management Agency (FEMA)
          (now part of EP&R) and U.S. Customs Service (now part of BCBP) encompass serious
          shortcomings in such areas as system security program, security control implementation,
          contingency planning, computer security education and awareness, personnel security,
          risk assessments, security life cycle management, C&A, timely restoration of critical
          systems, and logical and technical systems security exposures. In addition, OIG
          noted that the eight POA&Ms for FEMA have not been resolved in a timely manner.
          Specifically, these material weaknesses were scheduled for remediation in early 2003;
          however, resolution was delayed because of a lack of funding. Details of each of the ten
          material weaknesses that were reported in FY 2002 follow:

          FEMA

          1. System Security Program- The System Security Program has not been implemented
             fully.

          2. Security Control Implementation- Security controls have not been implemented
             consistently across all systems.

          3. Contingency Planning- Only a few of the systems have formal contingency plans and
             some of these plans have not been tested on a regular basis.

          4. Computer Security Education and Awareness- An agency-wide capability of
             providing basic computer security education and awareness training to all users needs
             to be established.

          5. Personnel Security- Background investigations for all personnel have not been
             performed.

          6. Risk Assessments- Risk assessments on at least one-third of its systems have not been
             performed.

          7. Security Life Cycle Management- Security life cycle management is needed.

          8. Certification and Accreditation- Full accreditation of at least one-third of the most
             critical systems has not been completed.



Page 10                           DHS Information Security Program Evaluation
                    Customs

                    9. Inability to restore critical systems timely- Several significant deficiencies were
                       identified in Customs’ ability to provide for timely restoration of mission-critical
                       systems that could impair its ability to respond effectively to a disruption in
                       operations.5

                    10. Various logical and technical systems security exposures exist- Global update
                        privileges were provided to numerous programs/data files, allowing potential
                        changes that could compromise the integrity of data. Also, access was provided
                        to programmers without appropriate tracking of their activities, or compensating
                        controls, to ensure that all functions performed were appropriate to their assigned
                        duties.

                    OIG was unable to identify the existence or non-existence of material weaknesses for
                    BICE, IAIP, S&T, and USCG. FISMA and OMB guidance requires agencies to report
                    all significant deficiencies as material weaknesses. The material weaknesses identified in
                    the legacy agencies’ FY 2002 GISRA and Performance and Accountability reports do not
                    include an assessment of the significance within their respective agencies.




5
    The DHS OIG is in the process of issuing a report, which states that BCBP has taken the appropriate steps to eliminate the
    problems which resulted in the material weakness.


                               DHS Information Security Program Evaluation                                             Page 11
          A.4 – Plan of Action and Milestones

          A.4. This question is for IGs only. Please assess whether the agency has
          developed, implemented, and is managing an agency-wide plan of action and
          milestone process that meets the criteria below. Where appropriate, please              Yes   No
          include additional explanation in the column next to each criteria.

          Agency program officials develop, implement, and manage POA&Ms for every
          system that they own and operate (systems that support their programs) that has an            X
          IT security weakness.
          Agency program officials report to the CIO on a regular basis (at least quarterly) on
          their remediation progress.                                                                   X
          Agency CIO develops, implements, and manages POA&Ms for every system that
          they own and operate (systems that support their programs) that has an IT security            X
          weakness.
          The agency CIO centrally tracks and maintains all POA&M activities on at least a
          quarterly basis.                                                                              X
          The POA&M is the authoritative agency and IG management tool to identify and
          monitor agency actions for correcting information and IT security weaknesses.           X

          System-level POA&Ms are tied directly to the system budget request through the
          IT business case as required in OMB budget guidance (Circular A-11) to tie the
          justification for IT security funds to the budget process.                                    X

          Agency IGs are an integral part of the POA&M process and have access to agency
          POA&Ms.                                                                                 X
          The agency’s POA&M process represents a prioritization of agency IT security
          weaknesses that ensures that significant IT security weaknesses are addressed in a
          timely manner and receive, where necessary, appropriate resources.                            X




          OIG found that DHS does not have a process to ensure that all POA&Ms are developed,
          implemented, and managed for every DHS program and system. Although DHS has
          the framework for an agency-wide POA&M process, this process is not followed by all
          components. DHS has purchased a software tool that provides for a central database
          to track and monitor POA&Ms. This tool is being customized to provide assessment
          templates and questionnaires to meet DHS criteria. OIG found that all components’
          POA&Ms are not maintained in DHS’ centralized database because either the component
          is using its own database or the component has not been trained on use of the database
          tool. Specifically, BCBP and USCG have not submitted all of their POA&Ms to the
          CISO. In addition, Transportation Security Administration (TSA) and USSS have
          classified POA&Ms that have not been submitted for inclusion in DHS’ consolidated
          POA&M database.




Page 12                                       DHS Information Security Program Evaluation
                     B. Responsibilities of Agency Head

                     B.1. Identify and describe any specific steps taken by the agency head to clearly and
                     unambiguously set forth FISMA’s responsibilities and authorities for the agency
                     CIO and program officials. Specifically how are such steps implemented and
                     enforced?

                     The Under Secretary for Management delegated to the DHS CIO oversight
                     responsibilities for DHS’ information security program. In turn, the DHS CIO designated
                     a CISO, as required under FISMA, with the authorities and responsibilities to establish
                     and enforce information security policies and procedures throughout the department.

                     The DHS CIO is currently developing an agency-wide information security program.
                     An IT Security Program Handbook, which provides specific policies and procedures
                     for implementing security requirements for Sensitive But Unclassified and National
                     Security Systems and networks, was disseminated in June 2003. Policies addressed in
                     the handbook include (but are not limited to) capital planning and investment control,
                     critical infrastructure protection, physical security, and contingency planning. In order
                     to manage the IT activities of the components, the DHS CIO established a Senior IT
                     Leadership Council, which includes each of the component’s Information Officers. The
                     CISO established an ISSB consisting of security managers from each component. These
                     two groups are the mainstay in the establishment and enforcement of department-wide
                     information system security policies and procedures. Also, the DHS CIO is establishing
                     a Security Operations Center to provide comprehensive IT security support, including
                     centralized support for security event monitoring.


                     B.2. Can a major operating component of the agency make an IT investment
                     decision without review by and concurrence of the agency CIO?

                     A major operating component of DHS cannot make an IT investment decision without
                     review by and the concurrence of the DHS CIO. In May 2003, DHS issued MD 1400
                     - Investment Review Process, which applies to all components, departmental offices,
                     agencies, and sub-elements within DHS for the acquisition of all capital assets and
                     services. MD 1400 requires that business cases6 and investment portfolios7 go through
                     a review before they can be approved. All investments are categorized into one of



6
    Business cases are also referred to as Exhibit 300s.
7
    Investment portfolios are also referred to as Exhibit 53s.


                                DHS Information Security Program Evaluation                            Page 13
          four levels based on specific criteria and each level requires a specific review and
          approval level. The DHS CIO is a member of the three boards that review and approve
          investments for Levels 1-4 (based on dollar thresholds). Our review included testing
          and reviewing a sample of 20 of DHS’ 120 business cases to ensure that they were
          reviewed by and included in the budget of the DHS CIO and program officials. Our
          review disclosed that four IT investments did not have security costs detailed in the
          business case. See section C.4 for a more detailed discussion of IT capital planning and
          investment.

          B.3. How does the head of the agency ensure that the agency’s information security
          plan is practiced throughout the life cycle of each agency system?

          The DHS Secretary has delegated oversight for the information security program to the
          Under Secretary of Management. The Under Secretary has assigned the responsibilities
          and authorities to the DHS CIO for the oversight of the agency information security
          program. Specifically, OIG noted that:

          •   Program officials are accountable for the security programs under their control. Every
              system has a senior management official with the authority to assume responsibility
              formally for operating a system at an acceptable level of risk.

          •   The DHS CIO develops, implements, and manages the DHS information security
              program that consolidates the DHS components’ information security programs into
              one.

          •   The CISO serves as the department-wide security administrator and advisor on
              technical computer security matters.

          •   The DHS CIO has a system development methodology policy that, once
              implemented, will help ensure that security plans are practiced throughout the life
              cycle of each agency system.

          The agency head has certified and approved MD 4300, Information Technology Systems
          Security. This directive establishes the IT Systems Security Program that provides for a
          comprehensive IT security policy for each component. Specifically, the security change
          management policy requires that new systems and newly modified systems proceed
          through the system development life cycle with changes documented in the security plan,
          tested, and approved prior to placing these systems into the operational environment.
          OIG determined that, although appropriate delegations have been made and management
          directives issued, a review by the CIO’s office has not been performed to ensure that



Page 14                           DHS Information Security Program Evaluation
                    DHS’s information security plan is practiced throughout the life cycle of each agency
                    system.

                    B.4. During the reporting period, did the agency head take any specific and direct
                    actions to oversee the performance of 1) agency program officials and 2) the CIO
                    to verify that such officials are ensuring that security plans are up-to-date and
                    practiced throughout the lifecycle of each system? Please describe.

                    In FY 2003, the DHS agency head took the following specific and direct actions to
                    oversee the performance of the DHS CIO and program officials:

                    •   The DHS Secretary has bi-weekly security briefings with senior officials. These
                        meetings include discussions on the performance of the agency security strategy and
                        related plans.

                    •   The DHS Secretary authorized DHS system approval as part of a formal C&A process
                        where the approving authority is the Designated Approving Authority. The process
                        includes determining that security controls for IT systems are implemented and
                        functioning correctly, which includes a review of current security plans. However,
                        OIG found that some of the testing of system security controls was not performed.

                    •   The DHS CIO has periodic senior IT Leadership Council briefings, which consist of
                        the components’ Information Officers (IOs)8 (see section B.1). Each IO is responsible
                        for certifying that each system, before implementation, has a security plan, been
                        assessed for risk, and has had its security controls tested.

                    B.5. Has the agency integrated its information and information technology security
                    program with its critical infrastructure protection responsibilities, and other
                    security programs (e.g., continuity of operations, and physical and operational
                    security)? Please describe.

                    DHS has not integrated its information and information technology security program with
                    its CIP responsibilities, and other security programs. However, DHS has taken a number
                    of steps toward this goal. Specifically, DHS’ Critical Information Assurance Officer
                    (CIAO) has established and chartered a CIP working group to develop collectively
                    policy, strategy, implementation guidance, and an oversight capability. Each component
                    has designated a CIP officer who is responsible for integrating and coordinating


8
    Chief Information Officers from each major division and critical agency.



                               DHS Information Security Program Evaluation                              Page 15
          CIP requirements within and among the components’ various security programs and
          infrastructure asset owners. Each component has a CIAO who is responsible for ensuring
          components’ CIP requirements are met and are compliant.

          In addition, DHS established the DHS Critical Infrastructure Protection Strategic Plan
          (DHS Strat Plan) that serves as a foundation for components to use in integrating their
          information technology security programs with their CIP responsibilities. The DHS
          Strat Plan represents a strategy designed to help the components address effectively the
          long-term challenges posed by the need to protect DHS’ critical cyber, physical, and
          personnel assets. Each DHS component shares responsibility for identifying the critical
          assets under its cognizance, assessing the vulnerabilities of those assets, and assuming
          their availability, integrity, confidentiality, survivability, and adequacy. The DHS
          CIAO oversees the CIP program and is aware of the progress within each component
          on implementing CIP responsibilities within their security programs through the CIP
          Working Group.

          B.6. Does the agency have separate staffs devoted to other security programs,
          are such programs under the authority of different agency officials, if so what
          specific efforts have been taken by the agency head or other officials to eliminate
          unnecessary duplication of overhead costs and ensure that policies and procedures
          are consistent and complementary across the various programs and disciplines?

          DHS has separate staffs devoted to other information security programs. Currently, the
          DHS IT security program resides with the DHS CIO and CISO. As noted in section
          B.1, the Under Secretary for Management has designated the DHS CIO as having the
          oversight responsibilities for the information security program at DHS. The DHS
          CIO has assigned the CISO with the information security officer responsibilities and
          authorities as outlined in FISMA. OIG found that each DHS component has its own
          security program. Specifically, each component has an ISSM, who meets with the CISO
          on a bi-weekly basis to discuss overall DHS security issues; however, ISSMs report to
          their component IO and not the CISO. This structure provides for a separate security
          function that is not under the direct control of the DHS CIO and the CISO.

          In addition, OIG noted that physical security resides with the DHS Security Office. This
          office is responsible for providing and overseeing the physical security of DHS facilities,
          including the various DHS data centers. DHS has not taken specific steps to determine
          whether there is unnecessary duplication of overhead costs related to its security
          programs.




Page 16                           DHS Information Security Program Evaluation
                    B.7 – Critical Operations and Assets

                      B.7 Identification of agency’s critical operations and assets (both national critical operations and assets and mission critical) and
                      the interdependencies and interrelationships of those operations and assets.
                      a. Has the agency fully identified its national critical operations and assets?               Yes                       No          X
                      b. Has the agency fully identified the interdependencies and interrelationships?              Yes                       No          X
                      c. Has the agency fully identified its mission critical operations and assets?                Yes                       No          X
                      d. Has the agency fully identified the interdependencies and interrelationships
                                                                                                                    Yes                       No          X
                      of those mission critical operations and assets?
                      e. If yes, describe the steps the agency has taken as a result of the review.
                                                                                                                      No, See Explanation Below.
                      f. If no, please explain why.


                    DHS has not identified all of its critical assets or operations. A two-step Project Matrix9
                    methodology will be used to identify these assets or operations. Until an official Project
                    Matrix review can be conducted, an unofficial list of CIP assets has been compiled based
                    on Project Matrix or other critical asset identification reviews that were performed by
                    legacy agencies. BCBP, FLETC, USSS, and Management have used Project Matrix to
                    identify their critical assets. BCIS, BICE, EP&R, and USCG used a hybrid approach
                    to identify their critical assets. IAIP, S&T, and TSA have not yet identified their critical
                    assets. A contractor will assist the DHS CIP Program Director in conducting an official
                    review during the first quarter of FY 2004 to identify all DHS’ critical assets and
                    operations.

                    DHS has not completed an interdependency analysis. This analysis will be performed
                    upon completion of critical assets and operations identification. DHS will develop a
                    methodology using one set of criteria for consistency in data capture and a standardized
                    approach will be used to ensure that processes are uniformly applied across all platforms.
                    DHS will conduct this review in FY 2004.




9
    Project Matrix involves a two-step process in which each agency identifies its nationally critical functions and services and
    the infrastructure of assets and links required to perform or provide them.


                                  DHS Information Security Program Evaluation                                                                       Page 17
          B.8 – Reporting of Security Incidents

                 B.8. How does the agency head ensure that the agency, including all components, has documented procedures
                 for reporting security incidents and sharing information regarding common vulnerabilities?
                 a. Identify and describe the procedures for external    The DHS CSIRC is responsible for notifying FedCIRC
                 reporting to law enforcement authorities and to         and law enforcement authorities of all DHS security
                 the Federal Computer Incident Response Center           incidents. This process formally began in June 2003.
                 (FedCIRC).                                              DHS notifies FedCIRC via an emailed version of the
                                                                         DHS Daily Operations and Monthly reports (which
                                                                         includes security incidents).
                 b. Total number of agency components or bureaus.         11
                                                                         (See section B.9 for components)
                 c. Number of agency components with incident             9
                 handling and response capability.                       (IAIP and S&T will establish the capability once they
                                                                         own their own systems.)
                 d. Number of agency components that report to            0
                 FedCIRC.                                                (DHS CSIRC reports all incidents)
                 e. Does the agency and its major components share       Yes
                 incident information with FedCIRC in a timely manner In June 2003, the DHS CSIRC began reporting all
                 consistent with FedCIRC and OMB guidance?               reported significant incidents daily to FedCIRC; a
                                                                         summary of all significant and minor incidents is reported
                                                                         monthly to FedCIRC.
                 f. What is the required average time to report to the   Agency: 4
                 agency and FedCIRC following an incident?               FedCIRC: daily
                                                                         Significant incidents must be initially reported to the
                                                                         DHS CSIRC within 4 hours. DHS reports significant
                                                                         incidents to FedCIRC daily.
                 g. How does the agency, including the programs within There is no formal process by the agency CSIRC or at the
                 major components, confirm that patches have been        components to confirm that patches have been tested and
                 tested and installed in a timely manner?                installed in a timely manner.
                 h. Is the agency a member of the Patch Authentication Yes                      No X          DHS is in the process
                 and Distribution Capability operated by FedCIRC?                                             of developing an
                                                                                                              enterprise solution for
                                                                                                              patch identification
                                                                                                              and deployment to
                                                                                                              include FedCIRC’s
                                                                                                              PADC. Two
                                                                                                              components are now
                                                                                                              members.
                 i. If yes, how many active users does the agency have
                 for this service?                                        4 (FLETC: 3, USCG: 1)
                 j. Has the agency developed and complied with specific Yes                     No X          The overall security
                 configuration requirements that meet their own needs?                                        architecture at
                                                                                                              DHS is still under
                                                                                                              development. Once
                                                                                                              established, the
                                                                                                              architecture should
                                                                                                              address configuration
                                                                                                              requirements for
                                                                                                              all systems. Some
                                                                                                              components have
                                                                                                              their own standards
                                                                                                              and procedures for
                                                                                                              configuring systems.
                 k. Do these configuration requirements address          Yes                    No X          DHS will include
                 patching of security vulnerabilities?                                                        patching of security
                                                                                                              vulnerabilities in
                                                                                                              its configuration
                                                                                                              requirements.




Page 18                                 DHS Information Security Program Evaluation
                     DHS established and implemented an agency-wide Computer Security Incident Response
                     Center (CSIRC) in January 2003. The DHS CSIRC serves as a mechanism to receive
                     and/or disseminate incident information and provide a consistent capability to respond
                     to and report on security incidents. Incident response policies and procedures were
                     finalized in June 2003 and were included in the DHS IT Security Program Handbook and
                     disseminated to the components.

                     The components are required to report significant incidents upon discovery and validation
                     of the incident and provide a full report to the DHS CSIRC within four hours. The
                     number of minor incidents by category is reported to the DHS CSIRC on a monthly basis.
                     The DHS CSIRC reviews and monitors all significant security incidents that are reported
                     by the components and notifies IT management of all significant incidents. The CSIRC
                     does not have a process to ensure that the components are reporting all incidents that have
                     occurred. The CSIRC ensures that all components understand the DHS security incident
                     response and reporting requirements.

                     Beginning in June 2003, the DHS CSIRC began requiring each component to submit
                     a monthly summary incident report for the previous month’s incidents. Of the 11
                     components required to submit monthly summaries, 5 components (BCBP, BICE, EP&R,
                     TSA, and USSS) submitted reports in June and 6 components (BCBP, BICE, EP&R,
                     TSA, USCG, and USSS) submitted reports in July. The CSIRC began formally reporting
                     all incidents (as reported by the components) to the Federal Computer Incident Response
                     Center (FedCIRC) in June 2003. Significant incidents are reported daily via the DHS
                     Daily CSIRC Report, as well as a summary of all reported significant and minor incidents
                     via the DHS Monthly CSIRC Report.

                     Nine of the eleven components reviewed have an incident handling and response
                     capability. The two components that do not have this capability (IAIP, S&T) are newly
                     formed and are using the DHS CSIRC until they establish their own capability.

                     The DHS CSIRC evaluates new vulnerabilities and identifies patches.10 Once a
                     vulnerability and patch are identified, an email is sent to all DHS components. Since
                     this is an informational service only, the DHS CSIRC does not ensure that patches
                     are actually installed. Because DHS does not have a consistent approach to patch
                     management, each of the components continues to use their own processes. In addition,
                     there are no formal processes at DHS to ensure that patches have been tested and installed
                     in a timely manner.


10
     A patch is a fix to mitigate or remove a vulnerability from a computer or system.



                                DHS Information Security Program Evaluation                             Page 19
          B.9 – Number of Security Incidents (October 2002 to June 2003)

          B.9. Identify by bureau, the number of incidents (e.g., successful and unsuccessful network penetrations, root or user
          account compromises, denial of service attacks, website defacing attacks, malicious code and virus, probes and scans,
          password access) reported and those reported to FedCIRC or law enforcement.
                                                                                                      Number of incidents reported
                                          Number of incidents        Number of incidents reported
          Bureau Name                                                                                 externally to law enforcement
                                               reported                  externally to FedCIRC
                                                                                                                    (D)
                                                  131                           (C), (D)                             0
          BTS-BICE                                                            2

          BTS-CBP                                    7                         0 (D)                                   0
                                                    19                             (D)                                 0
          BTS-TSA                                                              0

          BTS-FLETC                                  2                         0 (D)                                   0

          EP&R                                      15                         1                                       0

          IAIP                                       0                         0                                       0

          S&T                                        0                         0                                       0
                                                    15                             (C), (D)                            0
          USCG                                                                 1
                                                     4                             (D)                                 0
          USSS                                                                 0

          OIG                                        0                         0                                       0

          Management                                 0                         0                                       0

          Total                                     193                        4                                       0

          C - Reported by the DHS CSIRC
          D - Does not include the number of incidents reported by legacy agency organization to FedCIRC or law enforcement on the
              component’s behalf prior to it moving to DHS


          According to component information provided to OIG, the total number of computer
          incidents during FY 2003 was 193. Because some of the components did not have a
          formal means to record and maintain documentation on security incidents, OIG could not
          validate the resolution of all incidents.

          OIG found that computer incidents and reporting requirements are handled differently
          among the components. Since DHS did not issue draft incident response and reporting
          procedures to the components until May 2003, the DHS CSIRC has begun only recently
          to ensure that the components are complying with these procedures. The procedures
          provide components with a consistent methodology to identify, document, and report
          computer security incidents.

          OIG also found that the definition of incidents for reporting purposes differs between
          DHS and FedCIRC. Some incidents that FedCIRC considers a reportable incident are
          not deemed so by DHS. The number of security incidents may change significantly once
          DHS ensures that the definitions are in agreement with FedCIRC and that all components
          are following the same methodology to report incidents.




Page 20                                     DHS Information Security Program Evaluation
C. Responsibilities of Agency Program Officials and Agency Chief
Information Officer

C.1 – IT Security Program Performance Measures

C.1. Have agency program officials and the agency CIO: 1) assessed the risk to operations and assets under their control; 2)
determined the level of security appropriate to protect such operations and assets; 3) maintained an up-to-date security plan
(that is practiced throughout the life cycle) for each system supporting the operations and assets under their control; and
4) tested and evaluated security controls and techniques? By each major agency component and aggregated into an agency
total, identify actual performance in FY03 according to the measures and in the format provided below for the number and
percentage of total systems.
                                                                        Number         Number
                                                                       of systems     of systems
                                           Number
                            Number                                        with        for which                     Number
                                          of systems     Number                                       Number
                 Total     of systems                                   security       security                    of systems
                                          that have     of systems                                   of systems
                number    assessed for                                   control       controls                    for which
 Bureau name                              an up-to-      certified                                     with a
                   of       risk and                                      costs       have been                   contingency
                                           date IT          and                                     contingency
                systems    assigned a                                  integrated     tested and                   plans have
                                           security     accredited                                      plan
                          level or risk                               into the life   evaluated                   been tested
                                             plan
                                                                      cycle of the    in the last
                                                                         system          year

                          No.      %      No.    %      No.     %     No.      %      No.    %      No.     %     No.     %
BTS - BICE        88       66    75%      76    86%     88    100%     30    34%      23    26%     66     75%     9     10%
BTS- BCBP         25       23    92%      24    96%     20     80%      6    24%      24    88%     23     92%     22    88%
BTS - TSA         79        2     3%       1     1%      0     0%      11    14%      0      0%      0     0%      0      0%
BTS-FLETC         11        1     9%       1     9%      0     0%       2    18%      0      0%      1     9%      0      0%
EP&R              58       11    19%       9    16%      4     7%       9    16%      18    31%      9     16%     4      7%
IAIP               5        0     0%       0     0%      0     0%       1    20%      0      0%      0     0%      0      0%
S&T                0        0     0%       0     0%      0     0%       0     0%      0      0%      0     0%      0      0%
USCG              55       14    25%      17    31%      5     9%      15    27%      2      4%      8     15%     2      4%
USSS              20       17    85%      17    85%     12     60%      1     5%      5     25%      9     45%     1      5%
OIG                2        0     0%       0     0%      0     0%       0     0%      0      0%      0     0%      0      0%
Management         4        0     0%       0     0%      0     0%       0     0%      0      0%      0     0%      0      0%
Total             347     134    39%      145   42%     129   37%      75    22%      72    21%     116   33%      38    11%



The CISO is in the process of identifying all programs and systems. As these programs
and systems are identified, the components are working to determine which are risk
assessed, have up-to-date security plans, are C&A, and have contingency plans. DHS
will use the TrustedAgent FISMA tool to perform NIST 800-26 self assessments in the
future and is looking at potential contractors who can perform C&As for all programs and
systems. Also, DHS is planning to develop performance measures for risk assessments,
security plans, C&As, and contingency plans.

The Under Secretary of Management has identified four areas of interest (incident
handling, CIP, compliance and training) that the CISO has indicated will be the focus of


             DHS Information Security Program Evaluation                                                           Page 21
          performance measures. The DHS CIO and the CISO are currently meeting with potential
          vendors about the development of the DHS scorecard that will provide performance
          measures for each of these areas. Our review disclosed that overall, 39 percent of the
          347 systems identified had risk assessments performed on a regular basis or whenever
          the system, facilities, or other conditions changed. Some components have low numbers
          for risk assessments. For example, USCG has assessed 25 percent of its 55 systems, and
          EP&R has assessed 19 percent of its 58 systems. Components with high percentages of
          risk assessments include BCBP (92%), BICE (75%), and USSS (85%).

          As reported in our table, the number of system security plans that have been developed,
          authorized, and kept up-to-date varied depending on the component. For example,
          among the components with the highest number of security plans are BCBP (96%), BICE
          (86%), and USSS (85%). However, components with few up-to-date security plans are
          EP&R (16%), FLETC (9%), and TSA (1%).

          Overall, 129 of 347 (37%) systems were reported to have undergone C&A. BICE
          reported 100 percent and BCBP reported 80 percent of their systems have been C&A.

          Three components (FLETC, IAIP, and TSA) did not report any systems that had security
          controls tested and evaluated. In addition, the number of systems for which security
          controls have been tested and evaluated in the last year totaled 72 (21%). OIG also noted
          that contingency plans were in place for 116 (33%) out of 347 systems reviewed.

          OIG also reviewed a subset of systems at BICE, EP&R, IAIP, TSA, and USCG. The
          review included risk assessments, C&As, and contingency plans for the following
          systems: BICE’s Criminal Alien Investigation System, IAIP’s Project Matrix, EP&R’s
          National Flood Insurance Program, TSA’s Law Enforcement Message Switch, USCG’s
          Defense Messaging System, and Automated Mutual Assistance Vessel Rescue. OIG
          noted that while risk assessments were performed for all six systems reviewed, C&As
          were completed for 4 of the 6 systems, and contingency plans were in place for 4 of the 6
          systems.




Page 22                          DHS Information Security Program Evaluation
C.2 – Agency-wide Security Program

C.2. Identify whether the agency CIO has adequately maintained an agency-wide IT security program and ensured the
effective implementation of the program and evaluated the performance of major agency components.
Has the agency CIO        Did the CIO evaluate the    How does the agency     Has the agency CIO Do agency POA&Ms
maintained an agency-     performance of all agency CIO ensure that           appointed a senior   account for all known
wide IT security          bureaus/components? Y/N bureaus comply with the agency information agency security
program? Y/N                                          agency-wide IT security security officer per weaknesses including
                                                      program?                the requirements in all components?
                                                                              FISMA?
                                                        System Development
            N                          N                                                 Y                   N
                                                            Methodology


The DHS CIO has developed security policies, standards, and procedures and has
disseminated these to DHS components. These policies, and procedures provide the
framework for an effective information security program; however, DHS IT systems
are at increased risk because these policies have not been implemented fully across the
department.

For example:
• The POA&M process does not account for all known agency security weaknesses.
• Only eight percent of DHS employees and contractors have received security
   awareness training.
• An accurate inventory that identifies all major DHS programs and associated systems
   does not exist.
• All systems have not been C&A.

DHS is aware of these weaknesses in its IT security program and is working to resolve
these issues.




            DHS Information Security Program Evaluation                                                        Page 23
          C.3. Security Training and Awareness

            C.3. Has the agency CIO ensured security training and awareness of all agency employees, including contractors and those
            employees with significant IT security responsibilities?
               Total        Agency employees that       Total number      Agency employees with        Briefly describe        Total costs
              number         received IT security         of agency        significant security       training provided      for providing
             of agency         training in FY03        employees with      responsibilities that                              training in
            employees in                                 significant       received specialized                                  FY03
               FY03                                      IT security             training
                                                       responsibilities
                            Number       Percentage                        Number       Percentage

                                                                                                     LAN/Network Secu-
                                                                                                     rity, Win 2000, CISSP
                                                                                                     workshop, AIS securi-
                                                                                                     ty, SANS conferences,
                                                                                                     Unix, new employee
                                                                                                     orientation, security
               208785        16994(E)      8% (E)            1188            561          47%        administration          $650,642 (F)
                    (See Appendix C for specific component information)

          E - Does not include IAIP or S&T employees trained by their legacy agencies
          F - Does not include IAIP and Management


          An IT security training program director is responsible for developing an IT security
          training strategic plan and for consolidating the management and content of such training
          across DHS. A web-based security awareness training course is in development for use
          by all DHS employees and contractors. The program director is also in the process of
          identifying specialized training courses that employees with security responsibilities
          need to take on a yearly basis. These initiatives should be implemented in FY 2004. It
          will remain the responsibility of each component to ensure that all of its employees and
          contractors receive security awareness and specialized training each year.

          Our review of the IT security training at DHS for FY 2003 found that only eight percent
          of DHS employees and contractors had security awareness training and 47 percent of
          employees known to have significant security responsibilities had specialized training.
          For example, BICE provided only ten percent of its employees with security awareness
          training in FY 2003. BICE previously relied on its legacy agency to supply web-based
          training but was not able to use it during FY 2003. BICE is in the process of acquiring
          training, which will be available in the first quarter of FY 2004. BICE also reported
          that none of its security personnel received specialized security training during FY
          2003. BCBP and USSS reported that they would roll out their awareness training to
          all employees in September 2003. FLETC and TSA are in the process of providing
          awareness training (via a CD or the internet) to all employees. None of the TSA security
          personnel has received any specialized training in FY 2003 due to a lack of funding.



Page 24                                     DHS Information Security Program Evaluation
USCG reported that only 13 percent of its employees have received security awareness
training in FY 2003.

The training coordinators for each of seven components (BCBP, BICE, EP&R, IAIP,
S&T, TSA, and USCG) did not know the total number of employees with security
responsibilities. Without this information, it will be difficult to ensure that all security
personnel receive adequate training. In addition, OIG noted that seven of the components
(BICE, FLETC, IAIP, OIG, S&T, TSA, and USCG) did not have a means to track, by
name and position, employees who have received security (awareness and specialized)
training and the associated costs of the training.


C.4 – Capital Planning and Investment

C.4. Has the agency CIO fully integrated security into the agency’s capital planning and investment control process? Were
IT security requirements and costs reported on every FY05 business case (as well as in the exhibits 53) submitted by the
agency to OMB?
Bureau Name        Number of business Did the agency program          Did the agency CIO plan and Are IT security costs
                   cases submitted to official plan and budget for budget for IT security and        reported in the agency’s
                   OMB in FY05          IT security and integrate     integrate security into all of exhibit 53 for each IT
                                        security into all of their    their business cases? Y/N      investment? Y/N
                                        business cases? Y/N

BTS-BICE                      10                     Yes                           Yes                          H
BTS-BCIS                       4                     Yes                           Yes                          H
BTS-BCBP                      23                     Yes                           Yes                          H
BTS-TSA                       33                     Yes                           Yes                          H
BTS-FLETC                      2                      No                           No                           H
EPR                           22                      No                           No                           H
IAIP                           1                     Yes                           Yes                          H
S&T                            0                      G                             G                           G
USCG                          11                     Yes                           Yes                          H
                                                     Yes                           Yes
USSS                           2                                                                                H
OIG                            0                None submitted               None submitted                    N/A
Management                    12                     Yes                           Yes                          H
Total                        120

G- S&T does not have any systems.
H- Exhibit 53s have not yet been prepared.


In May 2003, DHS issued two directives, the IT Capital Planning and Investment Control
and Portfolio Management and the Investment Review Process, MDs 4200.1 and 1400
respectively. These directives provide guidance to the components on preparing Exhibit
300s and the process used to review and approve investment requests. OIG determined
that these MDs are being used by all components in the capital planning process. In
addition, we were able to confirm, through the review of budget documentation, that


             DHS Information Security Program Evaluation                                                             Page 25
          agency program officials and the DHS CIO have planned and budgeted for IT security
          and integrated these costs into the business cases for DHS systems.

          Because DHS had not started using the Information Technology Investment Portfolio
          System at the time of our evaluation, OIG requested a sample of hardcopy Exhibit 300s
          for review. We reviewed 20 (17%) of the 120 Exhibit 300s and the associated capital
          planning information submitted by the components for FY 2005. We found that four of
          the business cases reviewed did not contain IT security costs. The business cases were:
          EP&R’s Multi Hazard Map project, EP&R’s e-Nemis, FLETC’s Momentum project, and
          FLETC’s Student Administration and Scheduling System project.

          The Office of the DHS Chief Financial Officer plans to review and validate all security
          information contained in budget documents prior to submission to OMB. Because
          Exhibit 300s were still in draft and Exhibit 53s had not yet been prepared for FY 2005,
          OIG was unable to verify the numbers DHS prepared.



Recommendations
          FISMA requires agencies to report any significant deficiency in the adequacy and
          effectiveness of information security programs as a material weakness. As such, based
          on OIG’s evaluation of DHS’ IT security program, OIG recommends that the Chief
          Information Officer declare information security a material weakness.

          In addition, to assist DHS in the development and implementation of its information
          security program, the OIG recommends that the Chief Information Officer:

          •   Conduct an assessment of the Department’s various information security programs to
              determine if there is unnecessary duplication of overhead costs. If such unnecessary
              duplication is identified, the Chief Information Officer should take steps to redirect
              resources related to those programs so they can be used in implementing the DHS
              security program.

          •   Develop and implement a process to identify information security-related material
              weaknesses in mission-critical programs and systems. This process should identify
              all deficiencies that pose a significant risk or threat to operations or assets. In
              addition, the Chief Information Officer should implement an oversight and reporting
              function to track the progress of remediation of material weaknesses.




Page 26                           DHS Information Security Program Evaluation
•   Conduct certification and accreditation of the Trusted Agent application to provide
    assurance that all information in the database is secure.

•   Complete an inventory of all DHS programs and associated systems and require
    updates on a periodic basis from Information Systems Security Managers.

•   Require DHS Information Officers to assign Information Systems Security Officers
    to oversee the security controls of each major application and general support system.
    Further, the Chief Information Officer should require Information Systems Security
    Managers to oversee the certification and accreditation of all systems within their
    component.




******




We would like to extend our appreciation to the Department of Homeland Security for
the cooperation and courtesies extended to our staff during the review. If you have any
questions, please feel free to contact me at (202) 254-4100, or Frank Deffer, Assistant
Inspector General, Office of Information Technology Audits, at (202) 254-4041. A list of
major contributors to this report is listed in Appendix D.




         DHS Information Security Program Evaluation                               Page 27
Appendix A
Purpose, Scope, and Methodology



             Our independent evaluation included assessing DHS’ progress developing and managing
             the security program; evaluating data submitted by DHS components for FY 2003; and
             verifying the reported data. Further, we assessed DHS components’ compliance with
             the requirements of FISMA and related security policies, procedures, standards, and
             guidelines. In addition, we reviewed a sub set of DHS systems at BICE, EP&R, IAIP,
             TSA and USCG using NIST 800-26.

             OMB requires OIGs to respond to the three performance measurement areas identified
             in the reporting instructions for FY 2003. These areas include: (1) Overview of FISMA
             IT Security Reviews; (2) Responsibilities of Agency Head; and (3) Responsibilities of
             Agency Program Officials and Agency Chief Information Officer.

             OIG reviewed component responses, performance measures, and actual practices for five
             DHS major divisions and several other critical agencies (components).

             Our fieldwork was conducted from April through August 2003.




Page 28                             DHS Information Security Program Evaluation
Appendix B
Employee Training




                                                    DHS        BTS-ICE     BTS-CBP BTS-         BTS-   EPR       Coast
                              FY                                                                                          USSS     IAIP   S&T      OIG     Total
                                                 Management     (INS)     (Customs) TSA        FLETC (FEMA)      Guard

     Agency employees             Total            1,000                              60,091
                                                              35,000 (F) 45,000 (F)            1,144    6,972    52,586   6,500    NA     60 (D)   432    208,785
     including contractors        employees         (F)                                 (A)
                                  Received                                                                                                  0
                             FY03                    0          3,540       175       1,200      0      4,055     6,889   1,135    (B)              0     16,994
     Number and                   training                                                                                                 (B)
     percentage receiving         Percentage
     security training                              0%           10%         0%        2%       0%       58%      13%     17%      (B)     0%       0%      8%
                                  trained
     Employees                    Total                                      800        5                126       41               9       1
                                                     13         162 (E)                         20                          8                       3      1,188
     with significant             employees                                (E), (F)    (E)               (E)       (E)             (E)     (E)
     responsibility               Received
                             FY03 training          NA            0         396         0        4       125       18       7       9       0       2      561
     Number and
     percentage receiving           Percentage
                                                    NA           0%         50%        0%       20%      99%      44%     88%      100%    0%      67%     47%
     specialized training           trained

     Costs for providing     FY03                   NA        $240,100(C) $300,000     $0      $8,147   $4,885   $80,520 $15,000   NA      $0      $1990 $650,642
     training.
    (A) Employees only (number of contractors not known)
    (B) Employees of the components had training under their prior legacy agency
    (C) Cost of DHS Security Conference
    (D) Includes only headquarters employees
    (E) Includes only those in headquarters and known personnel in other offices. Additional security professionals exist but number is unknown.
    (F) Estimated
    NA Information not provided




                                             DHS Information Security Program Evaluation                                                                  Page 29
Appendix C
List of DHS Agencies




                       The Department of Homeland Security Components

                                    Border & Transportation Security
                   Immigration and Naturalization Service
                   Office of Domestic Preparedness
                   Federal Protection Services
                   United States Customs Service
                   Animal and Plant Health Inspection Service
                   Transportation Security Administration
                   Federal Law Enforcement Training Center
                                  Emergency Preparedness & Response
                   Federal Emergency Management Agency
                   Nuclear Incident Response Team
                   National Domestic Preparedness Office
                   Domestic Emergency Support Team
                   Strategic National Stockpile and National Disaster Medical Systems
                           Information Analysis & Infrastructure Protection
                   National Communications System
                   National Infrastructure Protection Center
                   Federal Computer Incident Response Center
                   Critical Infrastructure Assurance Office
                   National Infrastructure Simulation and Analysis Center
                                           Science & Technology
                   Plum Island Animal Disease Center
                   National BW Defense Analysis Center
                   CBRN Countermeasures Program
                   Environmental Measurements Laboratory
                                        United States Coast Guard
                                        United States Secret Service
                                               Management
                                        Office of Inspector General




Page 30                             DHS Information Security Program Evaluation
Appendix D
Major Contributors to this Report



                       Office of Information Technology
                       Information Security Division

                       Frank Deffer, AIG, Office Of Information Technology
                       Edward G. Coleman, Director, Information Security
                       Sharon Huiswoud, Audit Manager
                       Jeff Arman, Audit Manager
                       Ann Brooks, Audit Manager
                       Sharell Matthews, IT Auditor
                       Lane Melton, Computer Specialist
                       Anthony Nicholson, IT Auditor
                       George Prytula, IT Auditor
                       Tom Tsang, Referencer




                                    DHS Information Security Program Evaluation   Page 31
Appendix E
Report Distribution



              Department of Homeland Security

              Chief of Staff
              Deputy Secretary
              DHS OIG Liaison
              DHS Chief Information Security Officer
              DHS Chief Financial Officer
              DHS Component Information Officers

              Office of Management and Budget

              Homeland Bureau Chief
              DHS OIG Budget Examiner

              Congress

              Congressional Oversight and Appropriations Committee




Page 32                             DHS Information Security Program Evaluation
Additional Information and Copies

To obtain additional copies of this report, call the Office of Inspector
General (OIG) at (202) 254-4100, fax your request to (202) 254-4285, or
visit the OIG web site at www.dhs.gov.

OIG Hotline

To report alleged fraud, waste, abuse or mismanagement, or any other
kind of criminal or noncriminal misconduct relative to department programs
or operations, call the OIG Hotline at 1-800-323-8603; write to Department
of Homeland, Washington, DC 20528, Attn: Office of Inspector General,
Investigations Division – Hotline. The OIG seeks to protect the identity of
each writer and caller.
